JUDD E. STONE II
Solicitor General

(512) 936-1700
Judd.Stone@oag.texas.gov

September 23, 2021
Via E-File
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

No. 21-5592 (Capital Case), John H. Ramirez v. Bryan Collier,
Executive Director, Texas Department of Criminal Justice, et al.

Dear Mr. Harris:
I write in response to Petitioner’s letter of September 22, 2021.
The limited set of documents—totaling 25 pages—that Respondents have
proposed to lodge merit consideration by the Court given the posture of this petition.
Respondents prevailed in the District Court on Petitioner’s motion for a stay and
have not had an occasion to respond on the merits to Petitioner’s complaint with a
motion to dismiss or an answer. As Respondents understand the Court’s order of
September 10, 2021, the Court has decided to review the merits of the claim
Petitioner pled under the Religious Land Use and Institutionalized Persons Act
(RLUIPA) even though neither the District Court nor the Court of Appeals
undertook this review. In denying Petitioner’s motion for a stay, those courts
determined that Petitioner failed to satisfy his burden to show a likelihood of success
on the merits of either of his claims. The standard the courts below applied materially
differs from the standards the Court’s questions imply: whether Respondents have
carried a burden under RLUIPA and the affirmative defense of exhaustion.
Respondents’ proposal to lodge documents simply responds to the apparent change
in posture reflected in these questions.
P os t Of fic e Box 12548 , Aust in, Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. texa satto r neyg eneral .gov

Page 2
Respondents’ proposal is further necessitated by Petitioner’s delay in filing
his complaint and his shifting allegations after commencing suit. Petitioner filed suit
on August 10, 2021, nearly six months after Petitioner’s execution was scheduled
and just 29 days before the scheduled date. See D.E. 1. Petitioner then filed an
amended complaint containing additional allegations six days later. Id.; D.E. 5. Two
days later, on August 18, 2021, Petitioner filed the motion for a stay that precipitated
this appeal. D.E. 11. The district court allowed Respondents five days to submit their
response. D.E. 6; D.E. 13. On the day prior to Respondents’ deadline for their
response, Petitioner, apparently still unsatisfied with his allegations, amended his
complaint again and inserted his audible prayer allegations. D.E. 12. Petitioner’s
streak of fouls continued; he next filed a reply to Respondents’ response containing
information protected by law from disclosure. D.E. 14. That necessitated
Respondents’ filing of a motion to seal Petitioner’s reply. D.E. 16. Petitioner
opposed, and the District Court granted the motion to seal. Id.; D.E. 17. Respondents
filed a sur-reply and a supplement, D.E. 18; D.E. 21, before the District Court denied
the motion for a stay just 15 days after Petitioner filed it, D.E. 11; D.E. 23.
The procedural history of this case reveals a lack of diligence by Petitioner and
an extraordinarily compressed timeline of Petitioner’s making. This highlights the
“last-minute nature” of Petitioner’s litigation, Hill v. McDonough, 547 U.S. 573, 584
(2006) (quoting Gomez v. U.S. Dist. Court for N. Dist. of Cal., 503 U.S. 653, 654
(1992) (per curiam)), and the unworthiness of Petitioner’s claims, not a need for
remand, as Petitioner suggests.
Respectfully submitted.
/s/ Judd E. Stone II
Judd E. Stone II
Solicitor General
Counsel of Record
cc: Seth Kretzer (via e-mail)

P os t Of fic e Box 12548 , Aust in, Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. texa satto r neyg eneral .gov

